APPENDIX

United States v. Sandoval, 959 F.3d 1243 (2020)
2020 WL 2603208

959 F.3d 1243
United States Court of Appeals, Tenth Circuit.
UNITED STATES of America, Plaintiff - Appellee,
v.
Jordan SANDOVAL, Defendant - Appellant.
No. 19-2041
|
FILED May 22, 2020
Synopsis
Background: Defendant pled guilty in the United States District Court for the District of
New Mexico, William P. Johnson, Chief Judge, to committing assault in Indian Country
that resulted in serious bodily injury, and he appealed.

Holdings: The Court of Appeals, Briscoe, Circuit Judge, held that:
aggravated assault sentencing guideline's lack of adjustment for reckless instead of
intentional crimes was not disproportionate, and
district court did not abuse its discretion in determining that defendant's sentence was
not disproportionately high.
Affirmed.
Procedural Posture(s): Appellate Review; Sentencing or Penalty Phase Motion or
Objection.
*1244 Appeal from the United States District Court for the District of New Mexico
(D.C. No. 1:18-CR-01109-WJ-1)
Attorneys and Law Firms
John V. Butcher, Assistant Federal Public Defender, Office of the Federal Public
Defender for the District of New Mexico, Albuquerque, New Mexico, appearing for
Appellant.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

1a

United States v. Sandoval, 959 F.3d 1243 (2020)
2020 WL 2603208

Nicholas J. Ganjei, Assistant United States Attorney (John C. Anderson, United States
Attorney, and Dustin C. Segovia, Assistant United States Attorney, on the brief), Office
of the United States Attorney for the District of New Mexico, Las Cruces, New Mexico,
appearing for Appellee.
Before BRISCOE, McHUGH, and MORITZ, Circuit Judges.
Opinion
BRISCOE, Circuit Judge.
**1 Defendant-Appellant Jordan Sandoval (Sandoval) pleaded guilty to committing
an assault in Indian Country which resulted in serious bodily injury. See 18 U.S.C. §§
1153 and 113(a)(6). He was sentenced to a prison term of 27 months. Sandoval appeals
the district court’s sentence as disproportionate by noting crimes either committed with
greater intent or causing death are afforded only slightly higher sentencing ranges
under the Guidelines. At bottom, he argues his sentence is substantively unreasonable.
Exercising jurisdiction pursuant to 28 U.S.C. § 1291, we affirm.

I
Sandoval, after having consumed the equivalent of more than seven beers, was speeding
in his vehicle on the San Felipe Indian Reservation. ROA Vol. II at 3–4. He struck Jane
Doe’s vehicle from behind, sending it flipping and spinning towards a ditch. Id. Jane
Doe’s pinky finger was severed in the crash. Id. Fortunately, the other passengers in the
car, Jane Doe’s young daughter and teenage brother, did not sustain serious injuries. Id.
*1245 Sandoval was charged with assault resulting in serious bodily injury in violation
of 18 U.S.C. §§ 1153 and 113(a)(6). 1 Id. at 1. He pleaded guilty without a plea
agreement. The Presentence Investigation Report (PSR) calculated his base offense
level at 14. Id. at 5. After adding a seven-level enhancement for Jane Doe’s permanent
injury, the adjusted offense level was 21. Id. Sandoval received a three-level reduction
for acceptance of responsibility, resulting in a total offense level of 18. Id. at 6. Sandoval
had no previous convictions that yielded criminal history points, although he did have
two tribal court convictions, both of which related to the consumption of alcohol. Id. at
6–7. The district court adopted the proposed factual findings and Guidelines calculations
in the PSR, concluding the advisory Guidelines range was 27 to 33 months. ROA Vol.
III at 18–19.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

2a

United States v. Sandoval, 959 F.3d 1243 (2020)
2020 WL 2603208

Sandoval requested a downward variance, 2 asking for a sentence of one year and a day.
Sandoval argued, as he does on appeal, that the variance was appropriate because the
Guideline provision for aggravated assault, § 2A2.2, was not intended to cover reckless
conduct, which should be punished less severely than intentional conduct. ROA Vol. I
at 8–19. Sandoval also argued his sentence should be reduced because the offense level
applied was only one level below where it would have been had Sandoval killed one of
the occupants of the Doe vehicle. Id.
**2 The district court rejected Sandoval’s arguments. In particular, the district court
noted that “on the involuntary manslaughter [G]uidelines, I thought the [Sentencing]
Commission was woefully inadequate in terms of the advisory sentencing Guideline
range for those particular offenses.” ROA Vol. III at 19. The district court went on to
say, “[b]ut we’re not dealing here with an involuntary manslaughter. We are dealing
with conduct that was extremely reckless. ... I’ll find a sentence that is sufficient, but not
greater than necessary to satisfy the goals of sentencing is a commitment to the custody
of the Bureau of Prisons on the low end of the [G]uidelines at 27 months.” Id. at 19–20.

II
Sandoval challenges his sentence as substantively 3 unreasonable. His arguments are
predicated purely on policy disputes with the Guidelines. 4 First, he argues that the
applied Guideline, § 2A2.2, does not adequately reduce sentences when the assault
*1246 is committed recklessly; and that, because his adjusted offense level is only one
level below the base offense level for involuntary manslaughter involving the reckless
operation of a means of transportation, it is disproportionately high.
“We review the substantive reasonableness of a sentence for abuse of discretion.” United
States v. Chavez, 723 F.3d 1226, 1233 (10th Cir. 2013) (citing Gall v. United States,
552 U.S. 38, 51, 128 S.Ct. 586, 169 L.Ed.2d 445 (2007)). “[W]e will find an abuse of
discretion only if the district court was arbitrary, capricious, whimsical, or manifestly
unreasonable when it weighed the permissible § 3553(a) factors.” United States v. Craig,
808 F.3d 1249, 1261 (10th Cir. 2015) (internal citations and quotations omitted). “In our
circuit, ‘a within-guideline-range sentence that the district court properly calculated ...
is entitled to a rebuttable presumption of reasonableness’ on appeal.” United States v.
Wireman, 849 F.3d 956, 964 (10th Cir. 2017) (quoting United States v. Grigsby, 749
F.3d 908, 909 (10th Cir. 2014)). “[T]his presumption of reasonableness holds true even
if the Guideline at issue arguably contains serious flaws or otherwise lacks an empirical
basis.” Id. (internal quotations and citations omitted, emphasis in original). 5
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

3a

United States v. Sandoval, 959 F.3d 1243 (2020)
2020 WL 2603208

A. Section 2A2.2’s Lack of Adjustment for Reckless Instead of Intentional
Crimes is Not Disproportionate
**3 Sandoval argues that his sentence is disproportionate, and thus manifestly
unreasonable, because § 2A2.2 does not distinguish between intentional and reckless
conduct. As a broad statement, Sandoval is generally correct that a criminal defendant’s
mental state is often relevant when determining his punishment. But that general
statement is not enough for us to conclude that the district court abused its discretion
here.
First, throughout 18 U.S.C. § 113(a), statutory maximums are adjusted based on a
variety of factors: the defendant’s mental state, compare § 113(a)(3) (assault with a
dangerous weapon with intent to do bodily harm), with § 113(a)(6) (assault resulting in
serious bodily harm), but also the means used, § 113(a)(4) (assault by striking, beating
or wounding); and even the relationship of the victim to the defendant, § 113(a)(8)
(assault of a spouse, intimate partner, or dating partner). Thus, although the statute and
its maximum penalties do take mental state into account, other criteria also drive the
relevant penalties.
Second, the Guidelines track these statutory maximums: Violations of § 113(a)(1)
*1247 are punishable by a maximum of twenty years in prison and governed by
Guideline § 2A2.1, applying a base offense level of 33. Violations of §§ 113(a)(2), (3),
(6), and (8) are punishable by a maximum of ten years in prison; Guideline § 2A2.2,
with a base offense level of 14, applies to these crimes. In contrast, §§ 113(a)(4), (5), and
(7), punishable by less than 10 years in prison, are governed by Guideline § 2A2.3, with
a base offense level of 7. Thus, Sandoval’s argument that § 2A2.2 does not account for
mental state ignores how the statute differentiates based on a defendant’s mental state
as well as other criteria, and how the Guidelines reflect that differentiation.
Additionally, the Sentencing Commission itself had an opportunity to consider
Sandoval’s argument, and presumably rejected it. Sandoval partially bases his argument
on the interaction between

United States v. Zunie, 444 F.3d 1230, 1235 (10th Cir.

2006) and § 2A2.2. Zunie held, as other circuits had, that a conviction for assault
under 18 U.S.C. § 113(a)(6) resulting in serious bodily injury can be based on reckless as
well as intentional conduct.

Id. Sandoval argues that, considering both the conduct §

2A2.2 covers and the fact that Zunie was decided after § 2A2.2 was originally enacted,
it was manifestly unreasonable for the district court to conclude reckless assault was
within the “heartland” of conduct covered by § 2A2.2. As a result, Sandoval argues, the
district court should have granted his request for a downward variance.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

4a

United States v. Sandoval, 959 F.3d 1243 (2020)
2020 WL 2603208

But the Commission amended the base offense level for § 2A2.2 in 2004, as part
of Amendment 663. U.S.S.G. App. C, Vol. III, at 11 (discussing Amendment 663).
Although

Zunie had not yet been decided, other circuits had held that § 113(a)

(6) covered reckless conduct like that at issue here. See

Zunie, 444 F.3d at 1235

(discussing United States v. Ashley, 255 F.3d 907, 911 (8th Cir. 2001) and United
States v. Loera, 923 F.2d 725, 730 (9th Cir. 1991)). That the Amendment did not adjust
§ 2A2.2 to account for reckless rather than intentional conduct undermines Sandoval’s
argument that § 2A2.2 was not intended to cover reckless conduct.
B. The Disparity Between Involuntary Manslaughter and Assault Resulting in
Serious Bodily Injury Does Not Support Reducing Sandoval’s Sentence
**4 If Sandoval had killed one of the vehicle’s occupants, he would have been
prosecuted under 18 U.S.C. § 1112 and Guideline § 2A1.4(a)(2)(B) would have applied.
The base offense level in that case would have been 22; Sandoval’s adjusted offense
level was 21. Sandoval argues that a one-level difference between severing someone’s
little finger and killing them is not proportional. While Sandoval’s argument has some
persuasive value, we are not convinced the district court abused its discretion in
declining to vary from the Guidelines range on that basis.
First, as the district court observed at sentencing, it can just as easily be argued
that the base offense level established by the Sentencing Commission for involuntary
manslaughter offenses involving reckless operations of a means of transportation is
inadequate and should be raised. See ROA Vol. III at 19. Sandoval responds that, because
involuntary manslaughter expressly considers “means of transportation,” sentences
under that provision represent the Commission’s intent as regards DWI crimes. Thus,
according to Sandoval, in order to consistently sentence for DWI crimes, a district
court should lower sentences for DWIs arising under the aggravated assault provision,
which does not have specific language to address such crimes. But Sandoval’s argument
is again *1248 undercut by Amendment 663. The Commission noted, in enacting
Amendment 663 and lowering the base offense level of both involuntary manslaughter
and aggravated assault, that it was not intending to benefit those who seriously injure
their victims. U.S.S.G. App. C, Vol. III, at 12 (“To ensure that individuals who cause
bodily injury to victims do not benefit from this decrease in the base offense level, the
specific offense characteristics addressing degrees of bodily injury each were increased
by one level.”).
Second, Sandoval is not making a true one-to-one comparison: the base offense level
for his crime is 14, not 21. His offense level was increased by seven because Jane Doe
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

5a

United States v. Sandoval, 959 F.3d 1243 (2020)
2020 WL 2603208

suffered a permanent injury. The Guidelines do not differentiate among crimes based
on the severity of the permanent injury caused; the same adjusted offense level would
apply if Jane Doe had lost her entire hand, or her leg, or an eye. When considering
those injuries, as a policy matter, the difference in base offense levels does not appear
nearly as disproportionate. Perhaps the district court could have granted a downward
variance because of the nature of the permanent injury but, given that the district
court found Sandoval’s conduct “extremely reckless,” an upward variance might have
been appropriate as well. See United States v. Lente, 759 F.3d 1149, 1166 (10th Cir.
2014) (affirming the district court’s upward variance, in part relying on the defendant’s
“extremely reckless” behavior); United States v. Pettigrew, 468 F.3d 626, 641 (10th
Cir. 2006) (“[W]e cannot say that the District Court abused its discretion in concluding
that Mr. Pettigrew acted excessively recklessly or in departing upward two offense levels
based on that conduct.”). Thus, we cannot say the district court abused its discretion in
declining to impose a lower sentence because of the nature of Jane Doe’s permanent
injury.
Neither of Sandoval’s policy arguments establish that the district court abused its
sentencing discretion. Sandoval cites multiple cases noting that the district court may, in
its discretion, grant a downward variance from the Guidelines, perhaps even when only
motivated by a policy disagreement with them. See, e.g.,

United States v. Friedman,

554 F.3d 1301, 1311 n.13 (10th Cir. 2009) (discussing the flexibility Kimbrough v.
United States, 552 U.S. 85, 91, 128 S.Ct. 558, 169 L.Ed.2d 481 (2007) accorded district
courts to adjust crack as compared to powder cocaine Guidelines). But Sandoval has not
cited any case where a district court was held to have abused its discretion by sentencing
within the Guidelines when it did not have a policy disagreement with them. To the
contrary, a district court is free to “conclude in its individualized judgment that any given
Guideline is reasonable and should be given considerable weight.” Wireman, 849 F.3d
at 964 (internal quotations omitted) (emphasis in original); see also United States v.
Morrison, 771 F.3d 687, 693 (10th Cir. 2014) (“district courts are not obligated to vary
from ... Guidelines on policy grounds if they do not have, in fact, a policy disagreement
with them.”) (internal citations and quotations omitted, addressing policy grounds in the
context of sentencing for child pornography).
**5 The district court carefully considered Sandoval’s arguments before sentencing.
We cannot conclude that the district court abused its discretion. The judgment of the
district court is AFFIRMED.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

6a

United States v. Sandoval, 959 F.3d 1243 (2020)
2020 WL 2603208

All Citations
959 F.3d 1243, 2020 WL 2603208

Footnotes
1

2

3
4

5

Relevant to Sandoval’s briefing, § 113(a)(6) is the federal statute that covers what
state law often terms driving under (or while under) the influence, or DWI. See,
e.g., N.M.S.A. § 66-8-101 (imposing a basic sentence of three years’ imprisonment
for “great bodily harm” caused by a vehicle, as a third-degree felony).
We note that Sandoval also requested a downward departure in his sentencing
memorandum. ROA Vol. I at 8. But “[w]e have no jurisdiction to review a
district court’s discretionary decision to deny a motion for downward departure
on the ground that a defendant’s circumstances do not warrant the departure.”
United States v. Shuck, 713 F.3d 563, 570 (10th Cir. 2013) (internal citations
and quotations omitted). Thus, we do not review the district court’s decision not
to depart from the Guidelines.
Sandoval does not argue his sentence was improperly calculated or otherwise
procedurally deficient. See Aplt.’s Br. at 4 n.3.
In United States v. Yazzie, 704 F. App'x 767 (10th Cir. 2017), we addressed and
rejected policy arguments which are almost identical to those raised here. We
cite Yazzie not as binding precedent, but only for its persuasive value. United
States v. Engles, 779 F.3d 1161, 1162 n.1 (10th Cir. 2015) (citing In re Citation
of Unpublished Opinions/Orders and Judgments, 151 F.R.D. 470 (10th Cir. 1993)
(containing General Order of November 29, 1993) and 10th Cir. R. 32.1 (2015)).
We note that when we reference this rebuttable presumption, it has no “independent
legal effect.” Rita v. United States, 551 U.S. 338, 350, 127 S.Ct. 2456, 168
L.Ed.2d 203 (2007). Rather, it “simply recognizes the real-world circumstance
that when the judge’s discretionary decision accords with the Commission’s
view of the appropriate application of § 3553(a) in the mine run of cases, it
is probable that the sentence is reasonable.”

Id. at 350–51, 127 S.Ct. 2456.

We note that, even after Rita, not all circuits use the language “presumption
of reasonableness” to describe the review accorded a district court’s withinGuidelines sentence. See, e.g.,

United States v. Carty, 520 F.3d 984, 993–94

(9th Cir. 2008). Based on Rita’s language, we agree with the Ninth Circuit
that the difference “appears more linguistic than practical,” as this appellate-only
presumption “does not shift the burden of persuasion or proof.”

Id. Instead, when

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

7a

United States v. Sandoval, 959 F.3d 1243 (2020)
2020 WL 2603208

we speak of the “presumption of reasonableness” of a within-Guidelines sentence,
we are only aligning with the Supreme Court’s directive that “the Guidelines
should be the starting point and the initial benchmark” in sentencing and not that
the resulting within-Guidelines sentence is somehow shielded from scrutiny on
appellate review.
at 909.
End of Document

Gall, 552 U.S. at 49, 128 S.Ct. 586; see also Grigsby, 749 F.3d

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

8a

9a

10a

11a

12a

13a

